SUPREME COURT OF THE UNITED STATES

BEATRICE MUNYENYEZI
Petitioner
v.
UNITED STATES OF AMERICA
Respondent

DECLARATION PURSUANT TO RULE 29.2
OF THE RULES OF THE SUPREME COURT
I hereby declare on penalty of perjury, as required by Supreme Court Rule 29, that the
enclosed Motion for Leave to Proceed in Forma Pauperis and Petition for a Writ of Certiorari
were sent to the Clerk of the United States Supreme Court in Washington, D.C., through the
United States Postal Service by first-class mail, postage prepaid, on August 2, 2021, which is
timely pursuant to the orders and rules of this Court. The names and addresses of those served in
this manner are as follows:
Original and 10 copies to
Scott S. Harris, Clerk
Supreme Court of the United States
1 First Street NE
Washington, DC 20543
1 copy to
Solicitor General of the United States
Room 5616, Department of Justice
950 Pennsylvania Ave., N. W.,
Washington, DC 20530-0001
1 copy to
Mark T. Quinlivan, Special Assistant U.S. Attorney
Office of the United States Attorney, District of Massachusetts
1 Courthouse Way, Suite 9200
Boston, MA 02210

1

1 copy to
Assistant United States Attorney Seth Aframe
United States Attorney’s Office
53 Pleasant Street
Concord NH 03301
This filing pursuant to Rule 29.2 was contemporaneous with the electronic filing.

Date: August 2, 2021

/s/ Richard Guerriero
Richard Guerriero, Counsel of Record
Supreme Court Bar No. 177863
Lothstein Guerriero, PLLC
Chamberlain Block Building
39 Central Square, Suite 202
Keene, NH 03431
Telephone: 603-352-5000
richard@nhdefender.com

2

